In the
Supreme Court of the United States

Melvin Knight,
Petitioner

No. 20-7805
Commonwealth of Pennsylvania,
Respondent

 

PROOF OF SERVICE

Thereby certify that I have this 17" day of September 2021 served a true and accurate

copy of Respondent’s Brief upon the person and in the manner listed below:

Marc Bookman, Executive Director
Atlantic Center for Capital Representation
1315 Walnut Street, Suite 905
Philadelphia, PA 19107

 
    

District Attorney
ID NO: 18273
